<html>
<title> - WHAT'S NEXT FOR LEBANON? STABILITY AND SECURITY CHALLENGES</title>
<body><pre>[Senate Hearing 115-758]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-758
 
                       WHAT'S NEXT FOR LEBANON? 
                   STABILITY AND SECURITY CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON NEAR EAST,
                       SOUTH ASIA, CENTRAL ASIA,
                          AND COUNTERTERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION
                               __________

                             MARCH 21, 2018
                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                           ______
                          

             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-832 PDF            WASHINGTON : 2020                         
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey

                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk       




             SUBCOMMITTEE ON NEAR EAST, SOUTH ASIA,        
               CENTRAL ASIA, AND COUNTERTERRORISM        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 TIM KAINE, Virginia
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
ROB PORTMAN, Ohio                    CORY A. BOOKER, New Jersey

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1


Kaine, Hon. Tim, U.S. Senator From Virginia......................     2


Abrams, Hon. Elliott, Senior Fellow, Middle Eastern Studies, 
  Council on Foreign Relations, Washington, DC...................     4
    Prepared statement...........................................     5


Malley, Robert, President and CEO, International Crisis Group, 
  Washington, DC.................................................     9
    Prepared statement...........................................    11

              Additional Material Submitted for the Record

``Lebanon is Boiling. Thousands of Americans Could Get Stuck in 
  the Middle of a War.'' by Elliott Abrams and Zachary Shapiro...    29

                                 (iii)

  


       WHAT'S NEXT FOR LEBANON? STABILITY AND SECURITY CHALLENGES

                              ----------                              


                       Wednesday, March 21, 2018

                               U.S. Senate,
             Subcommittee on Near East, South Asia,
                Central Asia, and Counterterrorism,
                            Committee on Foreign Relations,
                                                     Washington, DC
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Jim Risch, 
Chairman of the Subcommittee, presiding.
    Present: Senators Risch [presiding], Young, Kaine, Murphy, 
and Booker.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. The subcommittee hearing will come to order.
    And appreciate those of you hardy souls who have shown up. 
And you can tell your grandkids you walked to work in snow that 
was waist deep, uphill both ways. And it will at least be 
partially true after today. So, thank you for coming.
    This hearing is very timely, given a number of 
international conferences on Lebanon and upcoming elections in 
Lebanon in May. Lebanon has been a regional center for finance 
and trade for centuries, and has always been an important 
nation in the Middle East. But, it also sits in a very rough 
neighborhood today, with many outside forces attempting to 
upset the balance among its sectarian political forces.
    Today, Lebanon forces--faces enormous challenges. Security 
is first among those--these issues. Since 2006, the United 
States has provided roughly 1.7 billion to Lebanese Armed 
Forces and internal security forces. The recent conference in 
Rome provided additional commitments of more than $500 million 
for security assistance to Lebanon.
    Recently, the Lebanese Prime Minister announced that the 
Lebanese Armed Forces will increase their presence along the 
border with Israel. This decision is welcome as long as the LAF 
plays a role in decreasing the stockpiles of missiles and other 
weapons that Hezbollah has been stockpiling and installing 
along the border. But, I fear Hezbollah's behavior in the 
disputed areas could lead to a new war between Israel and 
Hezbollah.
    The economy remains another priority for Lebanon's future. 
With an ailing infrastructure, the country has lacked the tools 
necessary to achieve economic growth. Added to this is a 
massive refugee crisis. In a country of more than 4 million 
people, Lebanon has been ill-equipped to absorb over 1 million 
Syrian refugees in addition to a substantial Palestinian 
refugee community. Lebanon desperately needs to update its 
infrastructure if it hopes to achieve economic growth, but it 
also needs to stabilize its debt and implement reforms in key 
areas, such as the electricity sector and tackling corruption. 
The Paris Conference next month will be an important indicator 
of how much support exists for Lebanon.
    Finally, a new election law is reshaping how to form 
electorate--electoral alliances and sparking new coalitions. 
With almost a thousand candidates for 128 seats in Parliament, 
the May 6th elections will test whether this new law will help 
move the country forward or if old alliances will dominate the 
political landscape. Political stability will be important to 
reach consensus on many of the domestic issues facing the 
country.
    Despite all of these issues, Lebanon is caught between many 
actors in the region and have--that have a substantial impact 
on Lebanon's future. Over the last several years, inaction and 
poor decisions regarding Syria have had dangerous consequences. 
Hezbollah, Iran, and other enemies have used this crisis to 
expand their reach. I am especially worried that we do not 
recognize the scale and regional reach of Hezbollah. Its 
strength inside Lebanon has grown, but it has also sent 
fighters to Syria, trainers to Iraq, and is supporting rebels 
in Yemen. While Hezbollah may be a power unto itself 
politically in Lebanon, it also serves as an emissary and 
interpreter for Iran throughout the Arab world, rallying 
militias and other fighters to destabilize countries and sow 
chaos.
    The United States, and indeed the world, has an important 
role in helping Lebanon maintain its independence. We need to 
have a comprehensive strategy to empower the Lebanese 
government, limit the influence of Iran and Hezbollah, and 
improve security for Israel. I hope this hearing will help us 
understand how we can best support this goal.
    Senator Kaine.

                 STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you, Mr. Chair.
    And I want to thank the Chairman for holding this hearing. 
In Foreign Relations, we spend an awful lot of time on this 
part of the world, but we do not spend a lot of time on 
Lebanon. And I think both of us are concerned about a number of 
items in the country, broader issues. And it is very, very good 
to have the hearing. We have two wonderful witnesses today.
    Prime Minister Hariri's brief resignation from Saudi Arabia 
was so unusual, a number of months back, and it led to calls in 
to our office from, sort of, all sides, raising the question 
about what was going on in Lebanon. That temporary problem 
seems to have abated, but, as the Chairman indicated, all kinds 
of issues remain. The growing strength of Hezbollah, the 
elections in May, the challenges of Hezbollah's growing 
armaments in the south, to Israeli security and the massive 
refugee problem that the Chairman discussed, all create 
significant issues.
    This has been a relationship--the U.S./Lebanon relationship 
has had some strengths, especially the cooperation of the 
United States with the Lebanese Armed Forces. I visited, I saw 
the work that we do together in traditional and special forces. 
The LAF may be one of the institutions in the country that does 
the best job of integrating folks from different parts of this 
challenging sectarian situation. And, while Hezbollah continues 
to grow, the announcement about more LAF presence near the 
border of Israel is positive. LAF has also played an important 
role for us in helping fight terrorism in Lebanon. Those are 
all the positives.
    But, the concerns are those that the Chairman outlined: the 
upcoming elections, the Rome Conference, and the timing of the 
work that we are doing on the Armed Services Committee with 
respect to the National Defense Authorizing Act, which always 
includes this component of partnerships, is very important. I 
do know that General Votel, the CENTCOM regional commander, as 
well as Secretary Mattis are strong supporters of the U.S./LAF 
military relationship, and I think that is an important thing 
that we should try to make stronger.
    But, this is a hearing where we can learn, you know, what 
is going well, but what we need to change, what we need to 
adjust. These are witnesses who are deeply skilled and have 
some differences of opinion. That is actually helpful to us as 
we grapple with this.
    So, Mr. Chair, thanks, and I am glad we are able to do this 
today.
    Senator Risch. Thank you so much. It is an important 
subject, as you have indicated.
    We are joined today by two witnesses with strong resumes 
and experience dealing with the Middle East:
    Our first witness is Elliott Abrams, who is currently the 
Senior Fellow for Middle Eastern Studies at the Council on 
Foreign Relations. Previously, he served as Special Assistant 
to President George W. Bush and Senior Director of the National 
Security Council for Democracy, Human Rights, and International 
Organizations, as well as Senior Director of the National 
Security Council for Near East and North African Affairs, 
finally, ending his tenure as Deputy National Security Advisor, 
where he supervised U.S. policy in the Middle East for the 
White House.
    Our second witness is Rob Malley, who currently serves as 
the President and CEO of the International Crisis Group. Prior 
to his current position, he served as Special Assistant to 
President Obama, heading the President's Counter-ISIL Campaign 
as well as coordinating White House policy for the Middle East, 
North Africa, and the Gulf region. In addition, he served as 
Special Assistant to President Clinton for Arab-Israeli 
Affairs, and Director for Near East and South Asian Affairs at 
the National Security Council.
    We certainly have diverse people here today, which I think 
will help us as we struggle with the questions.
    Gentlemen, we look forward to your testimony on this 
important topic.
    Mr. Abrams, we will start with you.

STATEMENT OF HON. ELLIOTT ABRAMS, SENIOR FELLOW, MIDDLE EASTERN 
     STUDIES, COUNCIL ON FOREIGN RELATIONS, WASHINGTON, DC

    Mr. Abrams. Thank you, Mr. Chairman. Thank you for inviting 
me here today.
    And I should, I guess, say I have spent the day giving 
people civics lessons, because people say, ``You cannot have a 
hearing. The Government is closed.'' And then I have had to 
explain, ``No, no, that is the executive branch. See, the 
legislative branch is separate. They make''--it has been 
interesting.
    Senator Risch. You know, I have had the same challenge as I 
have dealt with some of our European friends to explain to them 
about the branches of government. They get lost sometimes and 
think we only have a single branch of government. And it is not 
the first branch, I might add.
    Thank you.
    Mr. Abrams. I would like to submit my full testimony for 
the record, and an article I wrote a few days ago about the 
need to prepare now for getting Americans out of harm's way if 
there is another war in Lebanon.
    Since about 2008, Lebanon has been in the grip of 
Hezbollah, which is a terrorist organization backed and largely 
controlled by Iran. I think U.S. policy largely fails to 
acknowledge that fact. We consider or treat Lebanon as if it 
were a friendly, sovereign, independent country whose 
government can actually set its foreign and defense policy. 
But, that is an illusion. That Lebanon no longer exists. Let me 
talk about politics and then the army.
    In May 2008, Hezbollah ended a government crisis over its 
own powers by using its weapons to seize control of Beirut's 
streets and, effectively, of the entire state. The New York 
Times, back then, quoted one expert on Hezbollah concluding, 
``This is effectively a coup.'' It is been about a decade 
since, and Hezbollah's power has grown, and so has its 
domination of Lebanon.
    During the war in Syria for about the last 6 years, 
Hezbollah has served as Iran's foreign legion and sent 
thousands of Lebanese Shia across the border to fight. 
Throughout 2017, Israeli officials have been warning that the 
distinction between Hezbollah and Lebanon can no longer be 
maintained. Hezbollah is, quite simply, running the country. 
Yes, it leaves administrative matters to the government--paying 
salaries, paving streets, collecting garbage--but there is no 
important decision taken without Hezbollah's agreement.
    Tony Badran, a research fellow here at the Foundation for 
the Defense of Democracies, summed up the current situation, 
quote, ``In terms of the actual balance of power, the actual 
power on the ground, regardless of the politics, the cabinets, 
regardless of the parliamentary majorities, it is Hezbollah.'' 
Lebanon's constitution provides for a division of power by 
sect, but today there is really no balance of power. Hezbollah 
prevented the selection of a president for 2 years, until it 
could force the acceptance of the Christian closest to it, 
Michel Aoun. Parliamentary elections are coming May 6th, and 
there is a good chance they will help Hezbollah consolidate 
power. The issues that should be under debate, how to recover 
Lebanon's sovereignty and prevent Hezbollah from involving 
Lebanon in foreign wars, can hardly be mentioned.
    Let me just turn to the LAF in the time left. I would argue 
that our assistance to the LAF is based on the roles it is 
supposed to play under Security Council Resolutions 1559 and 
1701. If the LAF were implementing those resolutions, it would 
be intercepting Hezbollah weapons shipments coming from Iran 
via Syria, it would be securing Lebanon's borders, it would be 
preventing Hezbollah from parading its military equipment and 
maintaining fixed bases, it would be preventing Hezbollah from 
placing military equipment in schools and hospitals. But, in 
real life, the LAF does none of those. If it were doing those 
things, it would be worth the 1.7 billion that the Chairman 
mentioned. You know, Lebanon is the fifth-largest recipient of 
FMF.
    But, it is not doing those things. On March 15th, the State 
Department spokesman at the conference in Rome on Lebanon said 
that we would renew our support because the aid we provide is, 
quote, ``enabling the Lebanese government to assert its 
authority throughout all of Lebanese territory,'' close quote. 
But, that is a fantasy. It is not happening. In fact, the 
relationship between the LAF and Hezbollah appears to be 
growing closer as time passes.
    I would argue that our military assistance to Lebanon 
should be made dependent on pushing back on Hezbollah, on 
regaining Lebanese sovereignty and independence. The price 
Lebanon pays for Hezbollah should be made far clearer. The 
advantages Hezbollah gains from its control of Lebanon should 
be reduced and made far more controversial. So, I would argue 
for a reassessment of that, of the basis for that military aid, 
which I think is an assumption that the LAF is pushing back 
against Hezbollah and protecting Lebanon in ways that are 
simply contrary to fact.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Abrams follows:]

             Prepared Statement of the Hon. Elliott Abrams

    Mr. Chairman and Members of the Committee, thank you for inviting 
me here today. I would like to submit for the record both my full 
testimony and an article I and a colleague wrote last week, entitled 
``Lebanon is Boiling. Thousands of Americans Could Get Stuck in the 
Middle of a War.''
    Mr. Chairman, Lebanon has at least since 2008 been in the grip of 
Hezbollah, a terrorist organization backed by Iran. In my view, U.S. 
policy fails to acknowledge that fact--and we continue to act as if 
Lebanon were a friendly, sovereign, and independent country whose 
government can actually set its foreign and defense policy. But that is 
an illusion: that Lebanon no longer exists.
    I'd like to discuss Lebanese politics first, and then the Lebanese 
army.
    In May 2008, Hezbollah ended a government crisis over its own 
powers by using its weapons--allegedly meant only to protect the 
country from Israel--to seize control of Beirut's streets and 
effectively of the entire state. The New York Times back then quoted 
one expert on Hezbollah concluding ``This is effectively a coup.'' \1\
    In the near decade since, Hezbollah's power has grown and so has 
its domination of Lebanon. During the war in Syria since 2012, 
Hezbollah has served as Iran's foreign legion and sent thousands of 
Lebanese Shia across the border to fight. A story in The New York Times 
last August summed up the current situation:

        Hezbollah has rapidly expanded its realm of operations. It has 
        sent legions of fighters to Syria. It has sent trainers to 
        Iraq. It has backed rebels in Yemen. And it has helped organize 
        a battalion of militants from Afghanistan that can fight almost 
        anywhere. As a result, Hezbollah is not just a power unto 
        itself, but is one of the most important instruments in the 
        drive for regional supremacy by its sponsor: Iran. Hezbollah is 
        involved in nearly every fight that matters to Iran and, more 
        significantly, has helped recruit, train and arm an array of 
        new militant groups that are also advancing Iran's agenda.\2\

    That story concluded that ``few checks remain on Hezbollah's 
domestic power'' in Lebanon.
    And throughout 2017, Israeli officials have been warning that the 
distinction between Hezbollah and ``Lebanon'' can no longer be 
maintained. Hezbollah is quite simply running the country. While it 
leaves administrative matters like paying government salaries, paving 
the roads, and collecting garbage to the state, no important decision 
can be taken without Hezbollah's agreement. Tony Badran, a research 
fellow at the Foundation for Defense of Democracies who specializes in 
Lebanon, summed up the current situation: ``In terms of the actual 
balance of power, the actual power on the ground, regardless of the 
politics, regardless of the Cabinets, regardless of the parliamentary 
majorities: it's Hezbollah.'' \3\
    Lebanon's constitution provides for a division of power by sect, 
with a Shia parliamentary speaker, Christian president, and Sunni prime 
minister. But today, there is no such division or balance of real 
power. Hezbollah prevented the selection of a president for more than 2 
years, until it could force acceptance of the Christian closest to it, 
Michel Aoun. As an analyst at the Institute for National Security 
Studies in Israel put it, ``Hezbollah has been very squarely backing 
Aoun for president and this was always the deal between Aoun's party 
and Hezbollah. Hezbollah has upheld its end of the deal. With this 
election . . . you can see Hezbollah being consolidated in terms of its 
political allies as well as its position in Lebanon.'' \4\
    Similarly, today the Sunni prime minister, Saad Hariri, provides 
cover to Hezbollah's domination of the state rather than a 
counterbalance to that power. Hezbollah is part of Hariri's coalition 
government--but Hezbollah, not the government, dominates.
    Parliamentary elections will be held on May 6, and they will most 
likely help Hezbollah consolidate power--because challenging Hezbollah 
and running against it are simply too dangerous. The issues that should 
be under debate, primarily how to recover Lebanon's sovereignty and 
prevent Hezbollah from involving Lebanon in foreign wars, cannot be 
mentioned. Some will argue that fear is not the only motivating factor, 
and that apathy and fatigue also play key roles. The result is the 
same: Hezbollah today faces no real opposition from Christian, Druze, 
or Sunni party leaders.
    Sadly, there is another way to measure Hezbollah's domination of 
Lebanon: its ability to use the institutions of the state to punish 
even rhetorical challenges. Hanin Ghaddar, an analyst at the Washington 
Institute for Near East Policy, has been convicted by a Lebanese 
military court for the ``crime'' of ``defaming'' the Lebanese army. The 
sad story is told in full by the Washington Institute, and relates to 
comments she made at a conference in Washington in 2014. What did she 
say? That the Lebanese military targets Sunni groups while showing 
preference to Shiite groups, such as Hezbollah. After a closed trial 
held in absentia, she was sentenced to 6 months imprisonment. So much 
for freedom of expression in Lebanon.
    I would like now to turn to the Lebanese Armed Forces or ``LAF.''
    U.S. assistance to the LAF is based on U.N. Security Council 
Resolutions 1559 and 1701, which call for the disarmament of all 
militias in Lebanon and the affirmation of state sovereignty and 
independence. If the LAF were implementing 1559 and 1701, it would be 
intercepting Hezbollah weapons shipments coming from Iran via Syria. It 
would be securing Lebanon's borders. It would be preventing Hezbollah 
from parading its military equipment and maintaining fixed bases. It 
would be preventing Hezbollah from placing military equipment at 
civilian sites like homes and schools. But in real life, the LAF does 
none of these things.
    If the LAF were doing these things it would certainly deserve the 
$1.7 billion in aid that the United States has given it. That amount 
includes $123 million in FY2017, and Lebanon is the fifth largest 
recipient of foreign military financing (FMF). Our ambassador to 
Lebanon, Elizabeth Richard, said publicly on October 31 of last year 
that total support for the LAF from State Department and Defense 
Department accounts totaled $160 million over the previous year.\5\ The 
State Department's proposed budget for FY2018 zeroes out FMF for 
Lebanon, which may suggest some doubt within the administration 
regarding the LAF's achievements.
    But on January 31, Acting Assistant Secretary of State David 
Satterfield stated that ``We will sustain our efforts to support 
legitimate state security institutions in Lebanon, such as the Lebanese 
Armed Forces, which is the only legitimate force in Lebanon.'' And on 
March 15, at a conference on Lebanon held in Rome, the State Department 
``renewed its support'' and said that the aid we provide is ``enabling 
the Lebanese government to . . . assert its authority throughout all of 
Lebanese territory.''
    That statement is a fantasy. A far more realistic view of the 
situation is offered by Israel's Minister of Defense, Avigdor Liberman, 
who recently stated that ``today, the Lebanese army has lost its 
independence and is another unit in Hezbollah's apparatus, and 
therefore, as far as we are concerned, the infrastructure of the 
Lebanese army and the Lebanese state is one with the infrastructure of 
Hezbollah.'' \6\
    The relationship between the LAF and Hezbollah appears to be 
growing and the notion that Hezbollah is a legitimate power is getting 
ensconced in LAF doctrine. The analyst Tony Badran described this 
development:

        The LAF's synergetic relationship with Hezbollah isn't 
        haphazard. It's a reflection of the power configuration and the 
        Hezbollah-dominated political order in Beirut. It's also 
        codified in the LAF's doctrine. Namely, the LAF's doctrine 
        adopts Hezbollah's formulation and vocabulary about the group's 
        role and position in the state: ``This Resistance, which has 
        been supported by the government, the army and the civilians, 
        has led to the defeat of the enemy on Lebanon's land.'' The 
        combination of ``Resistance'' (that is, Hezbollah), ``Army,'' 
        and ``civilians'' is an adaptation of Hezbollah's so-called 
        ``Army-People-Resistance'' doctrine, the embodiment of the 
        Iranian revolutionary template, which in turn is adopted by the 
        Lebanese government in its official policy statement. This 
        doctrine licenses the LAF's joint deployment and extensive 
        coordination with Hezbollah. It fosters not just toleration but 
        also legitimization of so-called ``resistance'' militias and 
        paramilitary groups operating under Hezbollah's wing. And 
        overall, it instills the pro-Hezbollah culture in the LAF 
        officer corps.\7\

    The LAF is increasingly intertwined with Hezbollah. David Schenker 
of the Washington Institute for Near East Policy described the 
situation this way:

        In April 2017, Hezbollah brought more than a dozen 
        international journalists on a tour of Lebanon's frontier with 
        Israel, breezing through several checkpoints manned by national 
        intelligence organs and LAF units, suggesting a high degree of 
        coordination. The next month, Hezbollah turned over several of 
        its Syria border observation posts to the LAF . . . Finally, in 
        late June, the LAF sent 150 officer cadets to tour Hezbollah's 
        Mleeta war museum, near Nabatiyah, a shrine to the 
        organization's `resistance' credentials vis-a-vis Israel.\8\

    As a Center for American Progress report stated, ``The Lebanese 
government has repeatedly denied any coordination with Hezbollah. 
However, events along the border make these claims increasingly 
implausible. Reports of such coordination undercut the LAF's standing 
and raise vexing questions for policymakers regarding the utility of 
U.S. security assistance to Lebanon.'' \9\ The leader of Hezbollah, 
Hassan Nasrallah, himself ``characterized the LAF as a `partner' and a 
`pillar' in what Hezbollah has described as the `golden formula, which 
means the resistance, the Army, and the people''' in the words of a 
recent Congressional Research Service report.\10\
    It is worth noting that in the face of Hezbollah's increasing 
domination of the Lebanese state, Prime Minister Hariri last week 
referred to Israel as ``the primary threat to Lebanon.'' \11\ That is 
an adoption of the Hezbollah line and a justification for Hezbollah's 
and Lebanon's absolute failure to implement Security Council 
resolutions 1559 and 1701.
    All of these developments should explain the tougher line toward 
Lebanon being taken in the last year by Saudi Arabia. The Saudis are no 
longer willing to prop up Lebanon while it serves as the base for 
Hezbollah's military and terrorist activities in league with Iran. 
Instead, they are asking what it will take for Lebanese to pressure 
Hezbollah to cut back on its actions and to allow the Lebanese state to 
govern again. What the Saudis are saying is, Enough--let's start 
describing Lebanese reality instead of burying it. Let's stop financing 
a situation that allows Hezbollah to feed off the Lebanese state, 
dominate that state, and use it as a launching pad for terror and 
aggression in the Middle East, all on Iran's behalf. Similarly, Israeli 
officials and analysts are noting Hezbollah's increasing domination of 
Lebanon and the great danger it creates--for Israel and for Lebanon. 
And meanwhile, as I've noted, American officials appear determined to 
avoid stating the facts and instead speak about Lebanon as if this were 
not 2018 but the days right after the Cedar Revolution when true 
national independence and sovereignty appeared possible.
    There is of course no guarantee that this tougher approach will 
succeed: Lebanese may be too terrified of Hezbollah. And success will 
require action by the United States and its allies, particularly 
France. If all of Lebanon's friends take the same approach, demanding 
that Hezbollah's grip on the country and the state be limited, we may 
embolden Lebanon's citizens and its politicians to protest Hezbollah's 
chokehold. Economic assistance to Lebanon and military assistance to 
its army should be made dependent on pushing back on Hezbollah and 
regaining Lebanese independence. The price Lebanon pays for Hezbollah 
should be made far clearer, and the advantages Hezbollah gains from its 
control of Lebanon should be reduced--and made far more controversial.
    Lebanese sovereignty and the prevention of Hezbollah domination of 
the state are in fact demanded by U.N. Security Council Resolution 
1701, adopted in August 2006 to end the war between Hezbollah and 
Israel. It's worth recalling what started that war: an unprovoked 
attack by Hezbollah into Israel, killing and kidnapping Israeli 
soldiers.
    Resolution 1701 includes these provisions:

        Emphasizes the importance of the extension of the control of 
        the Government of Lebanon over all Lebanese territory [and] for 
        it to exercise its full sovereignty, so that there will be no 
        weapons without the consent of the Government of Lebanon and no 
        authority other than that of the Government of Lebanon . . .

        Calls for . . . the disarmament of all armed groups in Lebanon, 
        so that, pursuant to the Lebanese cabinet decision of 27 July 
        2006, there will be no weapons or authority in Lebanon other 
        than that of the Lebanese State . . . \12\

    Now, Hezbollah is once again thrusting Lebanon into deadly 
conflicts in the region--including the risk of another war with Israel. 
These dangers will not be avoided by burying our heads in the sand, nor 
will Lebanon's sovereignty be restored by ignoring Hezbollah's 
destruction of that sovereignty. A better way forward is to tell the 
truth about the situation in Lebanon, and use both diplomatic and 
economic pressure to undermine Hezbollah's iron grip.
    The United States should reassess our military assistance and our 
entire policy. After all, if our strategy has been aimed at 
strengthening Lebanon's independence, we have failed. If our goal has 
been to limit the power of Hezbollah and its integration into Iran's 
regional system of military aggression, we have failed. If our goal has 
been to strengthen Sunni, Druze, and Christian minorities in Lebanon, 
we have failed. If we have tried to make the LAF a counterbalance to 
Hezbollah, we have failed. Perhaps things would be even worse today 
without our aid and our efforts, but that is a proposition that should 
be examined and tested.
    Is Lebanon closer to meeting the demands of Resolution 1701 than it 
was a decade ago--closer to exercising sovereignty over its territory 
and disarming militias and terrorist groups? I think not. And that's 
why American strategy for Lebanon requires a careful reassessment.
    Thank you for the opportunity to appear today.

----------------
Notes

    \1\ Robert F. Worth and Nada Bakri, ``Hezbollah Seizes Swath of 
Beirut From U.S.-Backed Lebanon Government,'' New York Times, May 10, 
2008, http://www.nytimes.com/2008/05/10/world/middleeast/
10lebanon.html.
    \2\ Ben Hubbard, ``Iran Out to Remake Mideast With Arab Enforcer: 
Hezbollah,'' New York Times, August 27, 2017, https://www.nytimes.com/
2017/08/27/world/middleeast/hezbollah-iran-syria-israel-
lebanon.html?_r=1.
    \3\ Jenna Lifhits, ``Lebanese PM's Resignation Magnifies 
Congressional Scrutiny of Hezbollah,'' Weekly Standard, November 7, 
2017, http://www.weeklystandard.com/lebanese-pms-resignation-magnifies-
congressional-scrutiny-of-hezbollah/article/2010377.
    \4\ Reuters et al., ``Lebanon's New Pro-Hezbollah President Vows to 
Retake `Israeli-Occupied' Land,'' Jerusalem Post, October 31, 2016, 
http://www.jpost.com/Middle-East/Hezbollah-ally-Michel-Aoun-elected-
President-of-Lebanon-471301.
    \5\ Jack Detsch, ``U.S. Sticks by Lebanese army despite Hariri 
Resignation,'' Al-Monitor, November 6, 2017, https://www.al-
monitor.com/pulse/originals/2017/11/us-support-lebanon-army-hariri-
resignation-saudi-arabia.html.
    \6\ Eldad Shavit, Insight No. 1027: Israel's Position on U.S. 
Military Aid to the Lebanese Army (Tel Aviv: Institute for National 
Security Studies, 2018), http://www.inss.org.il/publication/israels-
position-us-military-aid-lebanese-army/.
    \7\ Tony Badran, ``American Policy in Lebanon Isn't Policy. It's 
Poetry,'' Tablet, October 27, 2017, http://www.tabletmag.com/scroll/
248071/american-policy-in-lebanon-isnt-policy-its-poetry.
    \8\ David Schenker, PolicyWatch 2840: U.S. Security Assistance to 
Lebanon at Risk (Washington, DC: Washington Institute for Near East 
Policy, 2017), http://www.washingtoninstitute.org/policy-analysis/view/
u.s.-security-assistance-to-lebanon-at-risk.
    \9\ Hardin Lang and Alia Awadallah, Playing the Long Game: U.S. 
Counterterrorism Assistance for Lebanon (Washington, DC: Center for 
American Progress, 2017), https://www.americanprogress.org/issues/
security/reports/2017/08/30/437853/playing-long-game/.
    \10\ Carla E. Humud, Lebanon (CRS Report No. R44759) (Washington, 
DC: Congressional Research Service, 2017), 11, https://fas.org/sgp/crs/
mideast/R44759.pdf.
    \11\ Steve Scherer, ``Lebanon plans to boost army presence on 
Israel border,'' Reuters, March 15, 2018, https://www.reuters.com/
article/us-lebanon-italy-conference/lebanon-plans-to-boost-army-
presence-on-israel-border-idUSKCN1GR2P0.
    \12\ United Nations Security Council, Resolution 1701, Middle East, 
S/RES/1701, para.3, para.8, https://www.un.org/en/sc/documents/
resolutions/2006.shtml.

    Senator Risch. Thank you, Mr. Abrams.
    Mr. Malley.

 STATEMENT OF ROBERT MALLEY, PRESIDENT AND CEO, INTERNATIONAL 
                  CRISIS GROUP, WASHINGTON, DC

    Mr. Malley. Thank you, Mr. Chairman, Senator Kaine, other 
members of the subcommittee. Thank you for inviting me today, 
to talk about an important country that, as you say, is too 
often overlooked.
    Lebanon is an exceptional country, because it is both a 
microcosm of the region and an exception to it. It is a 
microcosm because so many things that ail the region, from 
sectarian polarization to refugee flows to the role of Sunni 
jihadism to the role of Iran, and to the role of a nonstate 
actor and the weakness of a state, all of that is 
characteristic of Lebanon.
    But, at the same time, it is an exception because of the 
pluralism, the tolerance, the multiconfessional politics, the 
fact that it manages, for better or for worse, to have 
relations with the U.S., with Iran, with Saudi Arabia. All 
those things make Lebanon stand out in a region that suffers 
from too little of all of that.
    And when you think about it, the shocks that Lebanon has, 
and continues to experience, from the wars that have--that 
has--it has suffered, from the over a million refugees, as you 
said, Mr. Chairman, about a quarter of its population, the 
spillover of the Syrian conflict, in terms of jihadism, but 
also sectarianism, and Hezbollah's role in that war. Most 
countries would not have been able to survive that, let alone a 
country as fragile and as polarized as Lebanon.
    The fact that it held together is because of two things. 
First, the memories of a very bloody civil war, but, second, 
because it has this awkward and sometimes troubling, and often 
quite troubling and disturbing balance between its relations 
with Iran and the role that it has allowed and afforded to a 
nonstate actor like Hezbollah. It is that balancing which gives 
Hezbollah, as my good friend Elliott Abrams just said, an 
outsized role in domestic politics and a veto on foreign 
policy. It is that balance that has allowed Lebanon to survive 
against the odds, as it is, and to be as resilient as it is.
    But, it is an unsavory balance that also raises the 
question that, as this subcommittee is examining, is that 
Elliott just spoke about, that balance means--that unsavory 
balance means that you have a nonstate actor that is an ally of 
Iran, that is obviously our enemy, that is dominating local 
politics. Nothing can be done against their will--governments 
cannot be formed against their will, a president cannot be 
chosen against their will--and that has hijacked their foreign 
policy. And that is why there are some--and Elliott is among 
them--who is arguing for a break from traditional U.S. policy, 
which has been to try to balance Hezbollah's influence by 
supporting independence or sovereign institutions--in 
particular, the LAF--and trying to prevent a recurrence of an 
Israeli/Hezbollah war. And I think Elliott has made a very 
strong case about why the policies that we have put in place 
have not fully achieved the goals that we would have liked to 
see occur in Lebanon. And so, the idea would be--the contrary 
idea would be, let us diminish Hezbollah, and therefore Iran's 
role, by sanctioning, punishing, cutting off aid to 
institutions like the LAF.
    Now, in a word, as with so many of these theories in the 
Middle East, it looks very good in practice--in theory; in 
practice, it is wrongheaded and dangerous. I think we have 
learned from experience that grand theories to try to change 
and to disturb the equilibrium in a particular country--in this 
case, Lebanon--often has unintended consequences with--which we 
should think about very carefully and prudently before going 
down that road.
    In this case, if we were to cut off assistance and halt our 
aid to the LAF, it could jeopardize Lebanon's stability. If we 
provoked a confrontation between Hezbollah and the LAF, I think 
we know who would prevail. It could intensify risks of war with 
Israel. It would weaken those who we want to support, those who 
count on independent institutions, who count on the LAF. It 
would give a freer hand to Iran and Hezbollah to dominate the 
LAF and other institutions. And, by creating chaos, it also 
would help Iran, which has a real ability and has always 
thrived on chaos in the region, whether it is in Yemen, Iraq, 
Syria, and Lebanon.
    And this is not just theory. I am not just speculating. 
Saudi Arabia tried, at some point, as you know, to engineer 
this kind of policy by forcing Prime Minister Hariri to resign 
in order to force Lebanon to have this choice, ``Either you get 
rid of Hezbollah or you get rid of our assistance. You cannot 
get both.''
    Now, I happened to be in Lebanon on the Monday after Prime 
Minister Hariri was detained in Saudi Arabia. I happened to be 
in Saudi Arabia last week, where I had a long meeting with 
Crown Prince Mohammed bin Salman. I came away from both those 
meetings, one in November, the other last week, convinced that 
the Saudi gambit had failed, and only slightly less convinced 
that the Crown Prince, himself, realizes that it failed. And it 
failed because Lebanon is a country where you cannot exclude 
one constituency, like Hezbollah, however much we may not like 
it. It has failed because all of the Lebanese, including the 
Sunnis who are closest to Hariri, were against this gambit. 
They told me, as they have told the Saudis, as they have told 
U.S. officials, ``This is far too dangerous to continue. We 
need to preserve the stability.''
    So, in a few words, what is a better approach? Continue our 
assistance to--and donor assistance--to Lebanon, ensuring that 
the LAF and other institutions, in particular, can be 
strengthened as a counterweight for Hezbollah. When we help the 
LAF, make sure that we tell them clearly that there are certain 
lines that they cannot cross, in terms of cooperation with the 
LAF. Use our--that leverage to get the institutions to work in 
the right direction. Avoid escalation between Hezbollah and 
Israel. And there are some--I do not have time here but we have 
some recommendations, in the International Crisis Group report, 
on this.
    And then, a last point, which may be beyond the remit of 
this hearing, but I think it is relevant, which is to try to 
de-escalate tensions in the region and our policies towards 
Iran, our policies on the Iran nuclear deal, our policies 
toward Saudi Arabia, which we should support, but not enable. 
All those, unfortunately, in my--in our opinion, are going in 
the wrong direction.
    So, this is not a grand agenda. It is not as inspirational 
or transformative as some may like. It is more of the status 
quo, maintaining our support, maintaining that policy. But, I 
think Lebanon is too weak, too vulnerable, too susceptible to 
destabilization to afford grand aspirations. It is not a 
country where grand dreams are made. It is a country which we 
have learned, Israel has learned, the French have learned--it 
is a country where grand dreams are--crash.
    Thank you.
    [The prepared statement of Mr. Malley follows:]

                  Prepared Statement of Robert Malley

    Mr. Chairman, Ranking Member Kaine, and members of the Committee. 
First, let me express my deep appreciation for the invitation to 
testify before you and discuss how best to support security and 
stability in Lebanon.
    I am the President and CEO of the International Crisis Group, a 
non-governmental organization that conducts field-based research on 40 
conflicts and vulnerable countries and monitors another 30 around the 
world. I previously also had the honor of serving in the White House 
under both Presidents Clinton and then Obama, most recently as his 
Senior Adviser for the Counter-ISIL Campaign and White House 
Coordinator for the Middle East, North Africa, and the Gulf region. My 
government and Crisis Group roles entail different mandates, interests 
to pursue, and interlocutors with which we can engage; in particular, 
Crisis Group has the ability to talk to people on all sides of the 
Lebanese divide, Hezbollah included. Today, I am speaking in my 
capacity as head of Crisis Group whose overriding goal is to resolve 
and prevent deadly conflict around the globe.
    You will likely have heard from others that the solution to 
diminishing Hezbollah, and by extension Iranian influence, lies in 
punishing the Lebanese state, sanctioning it, and conditioning support 
to its institutions and national army on an end to the Shiite 
movement's wholly disproportionate role. But Crisis Group's field work 
and analysis--as well as my own experience--paints a different picture. 
To drop our assistance to Lebanese state institutions and force a 
confrontation among Lebanese would produce precisely the opposite of 
what advocates of this approach purport to achieve. It would jeopardize 
Lebanon's stability; potentially prompt a domestic showdown in which 
Hezbollah's superior cohesion and militarily might would prevail; 
intensify risks of war with Israel; and imperil what remains of 
Lebanon's state institutions. Besides the enormous human cost entailed, 
such chaos and violence would come a time when the region already is 
experiencing far too much of both and would play into the hands of Iran 
and its allies that thrive on them.
                                   1.
    Mr. Chairman, to begin, a few words about Lebanon, a unique case in 
the region--both a microcosm of the Middle East, but also a striking 
exception to it. Lebanon has participated in, experienced and suffered 
from the Israeli-Arab conflict, the pernicious influence of 
sectarianism, the rise of militant jihadism, interference from regional 
actors, and dramatic refugee flows. The region's more powerful actors 
use it, variously, as a venue for their proxy wars, an arena in which 
to play out the Arab-Israeli conflict, and a testing ground for Saudi-
Iranian rivalry.
    Yet Lebanon also is that rarest of examples of what so much of the 
Middle East is lacking: pluralism, tolerance, consensus-based politics, 
and an ability to maintain relations with the U.S., Iran, and Saudi 
Arabia. The shocks Lebanon has experienced--from more than a million 
Syrian refugees, or a quarter of its population, who've poured in 
through Lebanon's eastern border, in addition to hundreds of thousands 
of Palestinian refugees; to a vicious war next door; to the sectarian 
tensions generated by that war and Hezbollah's direct involvement in 
it; to the rise of jihadi militancy--would have destabilized even a 
sturdy country, let alone one as polarized along political and 
confessional lines. The fact that it continues to hold together in 
large part is due to memories of the recent civil war but also to the 
delicate and at times unsavory domestic and foreign balancing act in 
which it constantly engages.
    Its resilience, in other words, has come at a price, including a 
power-sharing arrangement prone to paralysis, fragmentation along clan, 
family, regional, social and ideological lines, corruption and vast 
patronage networks, vulnerability to outside influence and, most 
notably, the persistent weakness of the central state and its 
coexistence with a powerful non-state armed actor closely allied with 
Iran that enjoys outsized influence. But that price ought not make us 
ignore the achievement of building and preserving a relatively stable 
and diverse entity in an exceptionally violent and polarized part of 
the world and in the wake of an extraordinarily long and bloody civil 
war. And it must not make us forget the overriding U.S. interest in 
preserving its stability, helping it cope with the strains causes by 
the inflow of Syrian refugees, strengthening its national institutions 
and independence, and avoiding another costly war with Israel.
    That once may have been a relatively uncontentious view. No more. 
My friend and fellow witness, Elliot Abrams, as well as senior 
officials from Saudi Arabia, advance a different view. They argue that 
the time has come to rip the mask off a government that, in their view, 
has simply become a convenient cover for Hezbollah's and, it follows, 
Iran's agenda in the region. In Abrams' words,

        Economic assistance to Lebanon and military assistance to its 
        army should be made dependent on pushing back on Hezbollah and 
        regaining Lebanese independence. The price Lebanon pays for 
        Hezbollah should be made far clearer, and the advantages 
        Hezbollah gains from its control of Lebanon should be reduced--
        and made far more controversial.

    He concludes: ``The United States should reassess our military 
assistance and our entire policy''.
    That might sound good on paper but is highly risky and inadvisable 
in practice. Saudi Arabia toyed with this approach late last November, 
when it unceremoniously compelled Lebanese Prime Minister Saad Hariri 
to resign in a bid to force his country to choose between continued 
Saudi assistance and Lebanon's stability on the one hand and Hezbollah 
continued outsized role on the other. I happened to be in Lebanon the 
day after Hariri was held up in Riyadh, and I happened to be in Riyadh 
last week meeting with Crown Prince Mohammed
    Bin Salman, on the eve of his visit to the U.S. I came away from 
both convinced that the Saudi gambit had backfired, and only slightly 
less convinced that the Crown Prince realizes it. Indeed, since those 
days, the Kingdom has reverted to a more realistic and pragmatic 
approach, maintaining ties to Lebanon without a fundamental change in 
the delicate political balance among Hariri, Hezbollah, and other 
forces that govern the country.
    It's what the U.S. administration also concluded after an animated 
debate at that time, when sounder minds that saw value in protecting 
Lebanon's stability and supporting its institutions prevailed over 
those who argued for the more hazardous option of fully backing the 
Saudi gambit. It's what I'd like to convince members of this committee 
of today.
                                   2.
    Mr. Chairman, potential threats to Lebanon's resilience could 
emanate from three distinct sources. The first is a stark disruption in 
the domestic balance of power which, frustrating and troubling as it 
may be, has preserved stability against the odds. A second danger is 
the outbreak of another war between Israel and Hezbollah, whose 
relations are governed by a regime of mutual deterrence that keeps 
conflict but one misstep or miscalculation away. The third peril comes 
from a regional environment that currently is experiencing far too many 
sources of tension and far too little diplomacy. Let me address each in 
turn.
    As for the domestic equilibrium: Lebanon's relative stability, as I 
noted, has been purchased at a disturbing cost. It has entailed 
accommodating an armed movement, Hezbollah, founded with active 
participation and funding from Iran, with the explicit mission of 
fighting against the Israeli occupation of southern Lebanon at the time 
and that has been a loyal Iranian ally ever since. Hezbollah, which has 
developed strong social roots by successfully exploiting the historical 
marginalization of the Shiite community, acts with considerable 
autonomy in Lebanese affairs. Today, it holds 12 parliamentary seats 
and, together with the closely aligned Amal movement, largely 
monopolizes the Shiite vote in Lebanon's sectarian political system.
    But while Hezbollah is thus a political actor that represents the 
choice and preferences of a sizable Lebanese constituency, as expressed 
in consecutive elections deemed largely free and fair (2005 and 2009), 
this, as you know all too well, is only part of the picture. The group 
has the capacity to maintain, equip and deploy its own militia 
fighters. It engages and cooperates with state institutions at its own 
discretion, and it maintains the de facto ability to block actions by 
political institutions that do not align with its agenda. It takes 
direct action in foreign theaters such as Syria to promote its agenda. 
In other words, the two secondary ministries (industry, youth and 
sport) it presently holds hardly reflects its actual power. Its massive 
military and organizational strength has discouraged or quelled any 
attempt to challenge it. It has resorted to arms in the past to make 
this clear and has demonstrated that it will not tolerate any 
accommodation by the Lebanese state with Israel, nor will it permit any 
alignment between Lebanon with regional actors that are opposed to the 
so-called ``axis of resistance.'' Indeed, in the past, Lebanese 
politicians who advanced policies contrary to this agenda were the 
target of assassinations in which Hezbollah's role is widely suspected. 
As other Lebanese parties have learned at their expense, at times 
violently, there is no government, let alone a sustainable one without 
Hezbollah's participation and support.
    The question for this subcommittee and for the U.S. more broadly, 
is what to do about this far from satisfactory reality. That was the 
question Crown Prince Mohammed Bin Salman asked and answered last 
November. As he saw it, and as he and other Saudi officials told me, 
for Hariri to preside over a government that included Hezbollah meant 
allowing one of Riyadh's closest allies to cooperate with Tehran's most 
loyal partner, and thus to empower and--given various forms of Saudi 
economic assistance, from the employment of Lebanese workers to its 
deposits in Lebanese banks, to its import of Lebanese products--
indirectly subsidize both Iran and Hezbollah. MBS viewed this as an 
irrational and counter-productive arrangement and, just 2 days before I 
coincidentally was to meet with Hariri in Beirut, held him against his 
will in Riyadh and got him to announce his resignation. As I wrote from 
Beirut at the time, ``That [Hariri] made the statement from Riyadh told 
much of the story; that he delivered it with the genuineness of one 
forced to read his own prison sentence told the rest. The decision was 
announced by the Lebanese prime minister but it was made in Saudi 
Arabia.'' While to this day Saudi officials deny this and maintain 
Hariri's resignation was entirely voluntary, few--in Lebanon, in the 
region, in Europe, or in the U.S. administration--take that denial at 
face value.
    The gambit failed, and it failed in large part because Lebanese--
whether Sunni, Christian or Shiite, and whether they support or decry 
Hezbollah--resented such brazen foreign interference and feared the 
destabilizing impact of such a disruption of their political order. It 
failed, too, because most Lebanese understand that, as of now at least, 
keeping Hezbollah within the government is a better guarantor of peace 
than forcing it out, and that an inclusive power-sharing arrangement is 
more stable than an exclusive one.
    Indeed, by and large, Hezbollah's agenda today is one of 
maintaining internal stability. We should be clear-eyed about why it 
does so: Hezbollah prizes calm because the status quo serves the 
organization well. On one hand, formal Lebanese state sovereignty 
provides a legal umbrella under which it can operate despite terrorist 
designations, without that state exerting real influence, let alone 
control over its actions. Preserving stability and state functionality 
also allows Hezbollah to focus on its military agenda and creates an 
environment in which its constituents can benefit from state services.
    Hezbollah has also shown a readiness to cooperate with political 
rivals and state institutions on security matters. With Hezbollah's 
quiet support, the last several years have seen Lebanon absorb large 
numbers of Sunni refugees from the Syrian conflict without significant 
sectarian violence. Hezbollah was also a force for restraint after a 
series of jihadi attacks against Shiite neighborhoods in the southern 
suburbs of Beirut between 2012 and 2015.
    Hezbollah's benefiting from the status quo and cooperating with the 
Lebanese Armed Forces (or LAF) in combatting jihadists is, of course, 
part of the problem. But it's also part of the reality we need to take 
into account in seeking to address it--namely that any effort to break 
the current governing alliance risks tearing Lebanon down and exposing 
to a greater jihadist threat. In offering you this picture, I do not 
mean to suggest any level of comfort with Hezbollah's status as an 
armed and unaccountable state within a state. But it is important to 
have a clear sense of how the group is operating on the ground, and 
what an effort to exclude it or sanction Lebanese institutions would 
provoke.
                                   3.
    Mr. Chairman, the picture I have just painted counsels in favor of 
continued donor assistance to the Lebanese state, rather than treating 
it as a pariah. While one ought not underestimate the role Hezbollah 
plays in Lebanese political life, and particularly in its foreign 
policy, it is not coterminous with the Lebanese state, and the Lebanese 
state cannot be reduced to, or should be held responsible for, the 
actions of an actor that has largely usurped its foreign policy. 
Furthermore, punishing the Lebanese state and weakening its 
institutions by withholding support likely would not inflict 
substantial harm on Hezbollah, which may be appropriating some of this 
support but does not rely on it. It would, however, disproportionately 
affect those Lebanese who attempt to defend what remains of the 
autonomy of state institutions, and their capacity to enable governance 
and participation in sectors that have not been captured by Hezbollah. 
As a Lebanese academic once quipped: ``People say that Hezbollah is a 
state within a state, but in reality it's a state within a failed 
state''. Getting that state to function better and with more autonomy 
will not rein in Hezbollah in the short term, but may narrow their base 
of support further down the road. By contrast, cutting off all support 
to and cooperation with the LAF would leave Iran and its allies without 
competition.
    The Lebanese army and other security forces form an important 
bulwark against the influence of jihadi elements in Lebanon, defeating 
ISIS and AQ-affiliated groups. Investing in these institutions is 
likely to be particularly important following the impending defeat of 
jihadi elements in Syria, which may prompt such groups to move to 
ungoverned or weakly controlled areas of neighboring countries like 
Lebanon. By supporting Lebanese institutions, the U.S. and donors more 
broadly can support stabilization of the perimeter of the Syrian 
conflict, help prevent spillover effects, and help provide security for 
the vast Syrian refugee community that currently resides in Lebanon.
    But there should be no expectation that Lebanese state security 
agencies will face down Hezbollah militarily. For one, even with much 
better equipment and training than they have today, these forces and 
agencies will not be a match to the size, equipment and combat 
experience of Hezbollah, in particular after the latter's 
participation, and training acquired, in the Syrian conflict. More 
importantly still, Lebanese security institutions comprise a cross-
section of Lebanese society, and a significant part of their personnel, 
if put to the test, should be expected to place loyalty to the 
sectarian community to which they belong over loyalty to the Lebanese 
state. An open confrontation between Hezbollah, which enjoys the 
overwhelming support of the Shiite community, and any state security 
institution will almost certainly lead to the fracturing of the latter 
into its sectarian components, and initiate a sectarian civil war from 
which Hezbollah is likely to emerge victorious. Such a course in any 
event almost certainly would be rejected by the security establishment 
itself, as well as by the majority of political actors, including 
Hezbollah's opponents.
    Following the upcoming elections in May, the emergence of yet 
another ``national unity government'', in which Hezbollah and its 
allies will be included, is highly probable. Hezbollah has expressed 
the clear intention to continue the current, broad political alliance 
that enabled the unblocking of the political/constitutional impasse in 
late 2016. The U.S. administration should accept this irrespective of 
its view of the organization, as an adversarial government formation 
would likely return Lebanon to the paralysis that characterized its 
politics prior to 2016, and potentially would be destabilizing, without 
affecting the behavior of the organization and Lebanon's regional 
posture.
    Finally, the U.S., and other international donors, should continue 
and if possible enhance support for Syrian refugees. Lebanon is bearing 
a huge burden remarkably well, but there are clear signs of strain. It 
is critical to continue financial support of humanitarian agencies to 
prevent existing tensions between refugees and host communities from 
escalating, and the Lebanese authorities from responding to popular 
pressure by pushing for unsafe returns to Syria.
                                   4.
    Mr. Chairman, the second threat facing Lebanon, as I mentioned, is 
another Israeli-Hezbollah war.
    Although Israel and Hezbollah face each other across Lebanon's 
southern border, and although tensions are mounting regarding the 
precise path of Israel's fence and the delineation of the Lebanese and 
Israeli maritime Exclusive Economic Zones, few in Lebanon seem to 
believe such a war is imminent. Both protagonists have cause for self-
restraint. Hezbollah knows that a provocation on its part would be met 
by devastating Israeli force. And the very reason Israel wishes to 
forcefully strike Hezbollah is the reason that it is inhibited from 
doing so--namely the prospect of a barrage of missiles on its urban 
centers. While Israel still possesses far greater ability to inflict 
pain, Hezbollah possesses far greater capacity to absorb it, which 
means that any large-scale Israeli operation runs the risk of being 
open-ended.
    At bottom, and despite the huge disparity in military power, each 
party recognizes in the other a formidable adversary and that any 
conflict likely would be far more destructive than their last military 
confrontation in 2006. On the one hand, according to Israel's own 
assessments, Hezbollah had some 16,000 missiles on the eve of the 2006 
war and holds today 130,000 missiles, including some with more advanced 
capacities. On the other hand, Israeli officials have made clear that, 
should a war break out, this time they would make little distinction 
between Hezbollah and the state behind which it hides. In the words of 
a senior Israeli military commander,

        If a war breaks out in the northern arena we need to act with 
        full force from the beginning. What we could do in 34 days 
        during the second Lebanon war we can now do in 48 to 60 hours. 
        The growth of our strength has not been linear. This is 
        potential power unimaginable in its scope, much different to 
        what we have seen in the past and far greater than people 
        estimate.

    In a similar vein, last October, Defense Minister Avigdor Lieberman 
warned, ``today, the Lebanese army has lost its independence and is 
another unit in Hezbollah's apparatus, and therefore, as far as we are 
concerned, the infrastructure of the Lebanese army and the Lebanese 
state is one with the infrastructure of Hezbollah.''
    There are other reasons why war may not be imminent. The presence 
of United Nations peacekeepers (the UNIFIL mission continues to patrol 
the area between the Litani river and the Israel-Lebanon border with a 
total of 10,838 troops) and the existence of established channels for 
communication and mediation of disputes helps manage the risk of an 
accidental escalation. Because both Israel and Hezbollah have 
understood the de facto ``rules of the game,'' mutual deterrence has 
worked for the past 12 years to keep the peace on that border. The 
recently more vocal maritime dispute between the two countries already 
secured constructive U.S. mediation efforts, led by the State 
Department, and is unlikely to lead to war.
    Yet any sense of complacency would be misplaced. Those rules of the 
game have been challenged by significant changes in the ground, most 
notably the Syrian conflict and attendant growth of Iran's and 
Hezbollah's presence in that country. In response, Israel has described 
several redlines the crossing of which already has, or will prompt a 
military response. First, Israel has made clear it would not accept 
Hezbollah developing the indigenous capacity to build high-precision 
missiles whether in Lebanon or Syria. Against the backdrop of Israel's 
successes in blocking convoys with high-precision missiles from Syria, 
Israeli officials claim Hezbollah has attempted to build subterranean 
high-precision missile factories in both countries. If Israel were to 
destroy such a factory, Hezbollah and its allies may forcefully react, 
potentially triggering a major conflict.
    Second, Israel is determined to prevent Hezbollah or Shiite 
militias from approaching the 1974 armistice line in southwest Syria 
and setting up offensive infrastructure in its vicinity. Yet if the 
Syrian regime were to seek to retake the southwest, it likely would do 
so with support from Hezbollah which could mean hundreds of Hezbollah 
fighters adjacent to the Israeli-Syrian fence. Israel fears that troops 
operating from this area, which has no Shiite population, would be 
harder to deter than Hezbollah forces operating from southern Lebanon, 
where any firefight with Israeli forces would produce large numbers of 
casualties among the organization's core constituency.
    Third, and more broadly, Israel wants to prevent its rivals from 
consolidating a permanent military presence anywhere in Syria, which, 
it fears, would strengthen their hand in future wars as well as their 
influence in Lebanon, Jordan and the Palestinian arena. Iran is of 
particular concern: Israel's redlines seek to block it from 
establishing an airport, naval port, military base, or permanent 
presence of militias. Israel has already demonstrated its resolve to 
disrupt the construction of this sort of major military infrastructure.
    Under virtually any of these scenarios, including those originally 
limited to Syria, the risk of war spreading to Lebanon would be 
considerable. If a tit-for-tat encounter were to begin in the 
southwest, and pressure to build in Israel to conduct a more robust 
response, it would have to choose among a series of bad options: target 
Hezbollah in Lebanon; strike Syrian targets in an effort to force 
Damascus or Moscow to rein in Hezbollah; or, should strain mount to 
levels it deems unbearable, launch an incursion into Syria to push 
Hezbollah back. All have the potential to trigger a wider war. And, as 
noted, the odds of that war being far more intense, bloody and costly 
than the last confrontation that occurred in 2006 would be high.
    The region already had one close call. In February 2018, Israel 
responded to the intrusion of an Iranian drone into its airspace with 
airstrikes against alleged Iranian bases in Syria. During that attack, 
Israel lost an F16 fighter jet and responded by destroying a part of 
the Syrian anti-aircraft defenses. The chain of events demonstrates the 
potential for rapid escalation in the southern Syria theater. Were 
Hezbollah involved in such a cycle of escalation, it almost certainly 
would spill into an all-out confrontation in Lebanon.
    It is often said, in both Israel and in Lebanon, that the next war 
is no longer a matter of ``if'' but of ``when''. Israel, from this 
perspective simply cannot accept the presence of a large, armed non-
state actors on its borders whose ability to inflict pain would, over 
time, significantly limit Israel's freedom of maneuver. And Hezbollah 
would feel no choice but to react, lest it lose what is left of its 
``resistance'' credentials. The trendline of the past four decades or 
so provides fodder for this view. Since 1978, Israel and Lebanon have 
been involved in three major confrontations, and the current lull--some 
12 years of relative calm--has been the longest since 1978.
    For various reasons, the U.S. enjoys only modest ability to prevent 
such an occurrence but it should use whatever influence it retains. 
Together with Russia and Jordan, it is a co-signatory of the 
southwestern ceasefire agreement, which includes limitations on Iranian 
and Hezbollah presence in the area. In a recent report, Crisis Group 
recommended steps to bolster this arrangement and decrease risks of a 
Syrian regime attempt to retake the southwest--and thus reduce the odds 
of an Israeli-Hezbollah war. In reality, however, Russia has the most 
important role to play in that effort. Alone among major players, it 
enjoys good relations with all parties involved--Syria, Israel, Iran 
and Hezbollah--and all these regional actors in turn feel some 
obligation to accommodate Russian concerns. Moscow reportedly stepped 
in directly in early February to keep the confrontation triggered by 
the drone incursion from spinning wholly out of control. But it can and 
should do more: rather than rushing to contain such flare-ups, Russia 
should facilitate channels of mediation and the establishment of rules 
of the game that would prevent such escalation from occurring in the 
first place. The U.S. should be clear with Russia on what those rules 
should be, and what Israel's redlines are.
                                   5.
    The third threat to Lebanon's stability is one that would appear 
beyond this hearing's remit, but it is not. I am referring to the 
broader regional context. Instability and conflict in the Middle East 
is nothing new. What is new, however, is Iran's unusually far-reaching 
regional role, an unusually apprehensive Israel, an unusually assertive 
Saudi leadership and, of course, an unusual U.S. president. As for 
Iran: For several years now, it has successfully exploited regional 
chaos to spread or enhance its influence in Iraq, Syria, Lebanon and 
Yemen. As for Israel: For months now, it has been sounding alarm bells 
about Hezbollah's and Iran's growing footprint in Syria, and more 
particularly about the Lebanese movement's potential capacity to 
indigenously produce precision-guided missiles.
    As for the new Saudi leadership: MBS is convinced that Iran for too 
long has viewed Saudi Arabia as a punching bag, and that Saudi Arabia 
for too long has obliged. He sees Tehran possessing far less money, 
military equipment, or powerful international allies than Riyadh, yet 
nonetheless on the ascent, exerting or expanding control over Baghdad, 
Damascus, Beirut, and Sanaa. He believes that only by more forcefully 
and aggressively pushing back--whether in Yemen, Iraq, or Lebanon--can 
Saudi Arabia and its partners halt Iran and turn the tide.
    As for the U.S.: Unpredictable and inconstant in so many ways, 
President Trump has been consistent in one regard at least, which is a 
belligerency toward Iran that has become the hallmark of his 
administration's Mideast policy. U.S. officials evoke his willingness 
to take action against Iran to restore the U.S. credibility and 
deterrence he feels his predecessor frittered away. To which one might 
add the administration's calling into question the Iranian nuclear deal 
and considering ramping up sanctions against Tehran, which 
unnecessarily heightens tensions. In this, the U.S. approach appears to 
be very much of a piece with the kingdom's: dismissive of diplomatic 
engagement with Tehran and persuaded of the need to establish a new 
balance of power.
    In such a tense environment, conflict is always but one step away, 
and confrontation in one arena quickly could spread to another. While 
the nuclear deal, by design, was tailored to exclusively address 
concerns over Iran's nuclear program, the implications of its demise 
may become manifest not only in stepped-up Iranian efforts to enrich 
uranium but in asymmetric responses by Tehran, targeting U.S. forces 
deployed in close proximity to Iranian local partners in Iraq, Syria or 
Afghanistan. Economic sanctions against Iran might have effects in 
Syria's Deir el-Zour province, where U.S.-backed Syrian Democratic 
Forces and Iranian-backed Shiite militias compete over territory that 
has strategic value and energy resources. Another missile strike fired 
by Huthis in Yemen toward a Saudi or Emirati city or an inadvertent 
clash in the Strait of Hormuz could provide justification for direct 
U.S. retaliation on Iranian soil, or for new sanctions that could 
jeopardise the JCPOA. All of which could--given its susceptibility to 
regional dynamics--quickly drag Lebanon into a regional escalation.
    Missing from this picture is any hint of diplomacy--between Iran 
and Saudi Arabia or between Iran and the U.S. Rather, the region faces 
a free for all in which the only operative restraint on one's actions 
is nervousness over what it might provoke. That's hardly reassuring and 
ought to change. That need not mean halting efforts to push back 
against Iranian destabilizing activities. But it would mean halting 
efforts to undo the Iranian nuclear deal and resuming at least some of 
the high-level U.S.-Iranian engagement that existed in recent years.
                                   6.
    This, then, is the complex reality of Lebanon and Hezbollah. A 
surprisingly resilient but nevertheless fragile Lebanese state coexists 
with an autonomous armed actor, Hezbollah, that is fixed in its 
opposition to Israel and alliance with Iran; a tense Israeli-Hezbollah 
relationship that is a single mistake or misinterpreted signal away 
from a very dangerous confrontation; and regional context rife with 
conflict trigger points and devoid of diplomacy.
    Mr. Chairman, given this picture, the lesson--unsatisfying as it 
might seem--is that outside actors, the U.S. among them, should deal 
cautiously with Lebanese affairs; bolster the central government and 
its institutions, notably the LAF; mitigate risks of a new Israel-
Hezbollah confrontation; reduce regional tensions through diplomatic 
engagement, including with Iran, all the while the putting aside more 
ambitious goals.
    This is not necessarily the most inspiring or transformational of 
agendas. But Lebanon is too weak, too vulnerable, too fragile, too 
finely balanced to be the vehicle for a transformative agenda. Lebanon 
is not the place where grand dreams are made. It's where they crash.

    Senator Risch. Thank you, to both of you.
    You have both raised some questions that I think we ought 
to explore a little bit. And that is--Mr. Abrams, you noted, as 
I did in my opening statement, that there are elections, May--
what is it?--6th? May 12th? And there are 1,000 people running. 
And your suggestion was that perhaps Hezbollah will make gains 
in those elections. What are your thoughts? I want to hear both 
of your thoughts on this. Do you think the people of Lebanon 
have a clear vision of the effects of electing a terrorist--a 
designated terrorist organization to be the government of the 
country? We have a model there with--in--obviously, in Gaza. 
And, in my mind, I see parallels there, that if, indeed, the 
electorate makes that choice--and, of course, they can make a 
choice that they want to make--some bad things are going to 
happen. Your thoughts, please.
    Mr. Abrams. I think they certainly recognize the nature of 
the coalition government they have had, of which--today--of 
which Hezbollah is a part. And certainly everybody in Lebanon 
recognizes that Hezbollah has, let us call it, extra-
constitutional powers just by virtue of the fact that it has 
the guns. But, I think they do not have a sense that--of the 
price they are paying, because we do not set a price.
    I was struck, in Rob's testimony, that he said, you know, 
in a sense--another version of what I said, that is, he said, 
``We need to set limits.'' And I basically said, ``Unless there 
are limits, we should not give them any money.'' I think we are 
saying, in that sense, the same thing. We ought to be saying to 
the LAF and to the--more generally, the people of Lebanon, 
``Certain things are not permissible, and they will cause us to 
walk away.'' And we have actually not done that. I mean, in the 
speech that Secretary Tillerson made in Beirut, he just 
applauded. Everything was just wonderful in Lebanon. There was 
no sense that--yes, he attacked Hezbollah, but he did not say, 
nor did we say at the Rome Conference, ``The following things 
are unacceptable to us, and they are going to have to change.'' 
So, unless we say that, I think Lebanese will not get that 
message.
    Senator Risch. Mr. Malley, you may have a different view.
    Mr. Malley. Well, first of all, I think the elections are 
not going to change much of--on the political equilibrium in 
the country. This is a finely balanced--they have a new 
electoral law, but in--I think we are going to see a replica of 
what we see today. It is going to be a national unity 
government. Those are the only ones that work. Lebanon 
experienced, in the past, an attempt to exclude one party or 
the other. It does not work. And, in fact, their basic--their 
constitution kind of requires that every constituency be 
represented. Hezbollah has a constituency among Shiites. It is, 
by far, the most powerful movement among Shia, with Amal, which 
is its ally. So, they will have that support and its--and we 
will not be able to diminish that support, even if we were to 
threaten a cutoff in aid. Hezbollah simply is too powerful 
among its constituents.
    And it is true, as Elliott says, it is--Lebanese may not 
know the price they pay by voting for Hezbollah. I think they 
would continue--the Shiites will continue to vote for them. 
They do know the price of trying to confront Hezbollah. For 
better or for worse, they have experience in the past. 
Hezbollah is a stronger party. And the army, itself, would 
splinter if there was a confrontation, because many Shia and 
others in the army would join Hezbollah.
    So, I think we have to be very realistic about what can be 
achieved and how our threats would play, or not, on Lebanese 
theater. My understanding, from talking to U.S. officials, is 
that they--we do tell the LAF. Of course, they are doing more, 
they are cooperating more, or they are working more with 
Hezbollah than as--than we might like. In some cases, because 
they had to cooperate with them to get rid of ISIS and get rid 
of al Qaeda on the border, they have worked together. But, we 
do set certain lines about how much we do not want them to 
cooperate. And the truth is, if we were not there, if we did 
not have that leverage, that cooperation and that sort of--the 
takeover by Hezbollah of the LAF would be--would probably be 
far more extensive than we are seeing today.
    So, this is not a comfortable situation, but it is the 
reality of Lebanon today, that there is no politics without 
Hezbollah, there is no equilibrium or balance or stability 
without Hezbollah. And either we decide that we are going to 
leave the--Lebanon and the Lebanese to that dominance and to 
Iran, and we are not going to play a role, or we are going to 
have to try to find a way to shape it as we go along.
    Senator Risch. Mr. Abrams, do you want to take a minute to 
respond?
    Mr. Abrams. Yeah, I just--I think there is a strawman being 
built here. I did not suggest cutting off Lebanon without a 
cent. I did not suggest breaking relations. I did not suggest 
that we end our economic assistance.
    I do think, though, that--you know, that Rob is operating 
on a theory, which is that if we significantly diminish our 
military aid, then there will be more cooperation between the 
LAF and Hezbollah. You know, we do not give them the whole 
budget. The budget--we probably give about 10 or 20 percent of 
the LAF and ISF budget. So, this is operating on a theory. And 
I think we would be better off saying certain things are just 
not acceptable, and some of those things are things that they 
have done--handing bases over from the LAF to Hezbollah, 
watching them parade, making no effort, really, to push back. 
Now, maybe they cannot push back, but then why are we paying 
for it?
    Senator Risch. Senator Kaine.
    Senator Kaine. You know, these are great discussions. So, 
let me just pick up on that. Because it is the case that Mr. 
Abrams was not talking about a cut, he is talking about with 
the right limitations. But, I would say it is also the case 
that Mr. Malley is not just advocating a theory, or at least 
not just his own theory, because what he is advocating would be 
what Secretary Tillerson advocates and also what General Votel 
and Secretary Mattis advocate.
    But, let me ask you a hard question, Mr. Malley. So, if we 
pursue this direction, the--you know, the Malley/Votel/Mattis/
Tillerson--what is the long game? Hezbollah continues to grow, 
you know, a little bit stronger, a little bit stronger, a 
little bit stronger. What is the path to something better? What 
is the path to something where Israel can feel more secure with 
its next-door neighbor or there is a better chance of, you 
know, a Lebanon that can deal with its internal challenges more 
successfully?
    Mr. Malley.
    Mr. Malley. It is a great question. And I do not think it 
is going to be resolved by us dealing with Lebanon. This is a 
big question having to do with Iran's policy in the region, 
which is why I think the third point that I made, which is, we 
have to--we have to push back against Iran. I do not think 
doing it without diplomacy, without engagement, is going to get 
us where we want to go. But, it is a big problem that--you 
know, administration after administration, the ones that 
Elliott served and the ones I served in, have not been able to 
tackle, which is, What do we do about Iran's role in the 
region? What do we do about the existence of an armed militia, 
like Hezbollah, with 100,000 missiles? That is a real problem. 
But, it is not by--I do not think--and I am not saying that 
Elliott is suggesting it--it is not by cutting off aid, or 
threatening to cut off aid to the LAF, that we are going to 
address that issue. That is going to take a transformation in 
the region. It may take events beyond our control that might 
happen in Iran, that would happen in Lebanon.
    Senator Kaine. How about--there is legislation pending 
before the committee on additional Hezbollah-related sanctions. 
So, say we leave the LAF funding and other economic support 
steady to show that a continued partnership--what about the 
viability of additional sanctions? I think there is a Rubio-
Shaheen bill that has been pending.
    Mr. Malley. So, I am not familiar with the details of that 
bill. I have seen other bills in the past. I think one question 
is, Is it going to--I think we have sanctioned Hezbollah.
    Senator Kaine. Right.
    Mr. Malley. Again, different administrations have, 
including the ones in which I served. The question is, are we 
also affecting Lebanon's economy? And we have to be careful 
that we do not affect ordinary Lebanese. And Lebanese in--I am 
sure you know it, because you get those phone calls--Sunni, 
Christian, and Shia, who say, ``Be careful. Our banking 
sector''----
    Senator Kaine. Right.
    Mr. Malley.----``is teetering.'' And so, we have to just be 
careful about that.
    But, I will say, not--you know, this is not a position 
against sanctions. We have to be realistic about what it is 
going to achieve. Sanctions are not going to diminish 
Hezbollah's power. Their power does not depend on whether the 
U.S. is providing, or others are providing, forms of 
assistance. There may be an initial, ``Why do we want''--as 
Elliott says, ``Well, are we supporting them--why should we be 
supporting Lebanon if it is giving this kind of cover to 
Hezbollah?'' But, again, that is not going to resolve the very 
big question you ask, which is a question we have been trying 
to grapple with for a long time, but not resolving, which is--
--
    Senator Kaine. Here is a big question that I grapple with. 
And when I go to Lebanon or elsewhere, when I go to southern 
Turkey or Iraq or Jordan, one of the questions I hear, but 
especially in Lebanon, is, ``We feel like we are just, you 
know, being trampled on by a Iranian-Saudi proxy war.'' People 
really feel like they are under the thumb of a big proxy war. 
And they--you know, the people I talk to are very upset about 
Iranian influence, but they are also upset about Saudi 
influence. The reaction to this forced, you know, resignation--
I know that Prime Minister Hariri's popularity has really been 
boosted in the aftermath of this, because there was a strong 
reaction in Lebanon against, you know, a foreign government 
trying to decide who the PM should be.
    How do you think Prime--either of you--how can, or likely 
will, the Prime Minister use that boost to try to make 
improvements? Or is that something that is just temporary, that 
is going to fade and does not give him any really increased 
ability to make improvements?
    Mr. Abrams. Well, that would be my judgment about it. I do 
not think you will see much of a change. I think he did have a 
boost in popularity, but I do not think, even in the Sunni 
community, he is viewed as a kind of strong leader, let us say, 
that his father was.
    Mr. Malley. I do not necessarily disagree. I think he did 
get a boost. I think that boost is probably going to be 
temporary, as political boosts often are in many situations. 
But, I think that the point you made--and, again, I happened to 
be in Lebanon at the time--Sunnis who are very close to Hariri, 
who are very anti-Hezbollah, who are very pro-American, were 
saying, ``How could Saudi Arabia do this? It is making us look 
bad. It is making us look like puppets.'' And that is why I 
think, with pressure from here and from the French and others, 
the Crown Prince reversed that decision, which I think was 
wise, because it was backfiring.
    Senator Kaine. All right. I will stop right there, let 
others ask.
    Senator Risch. Senator Young.
    Senator Young. Well, thank you, gentlemen, for being here 
today. You have had an interesting back-and-forth, and it is 
already been instructive for me.
    There seems to be some common agreement that our assistance 
to the LAF--more generally, to Lebanon--should be conditional 
upon certain good behavior. There perhaps is disagreement about 
the tactics we employ, but I think, foundationally, you have 
both agreed that--actually, you have explicitly stated that was 
the case.
    So, my question is, Is it feasible for, say, our State 
Department to establish achievable, verifiable conditions, to 
lay those out, to make those very clear to the Lebanese? And, 
if so, what would you regard as some of those--the most 
important benchmarks or conditions that need to be achieved?
    Mr. Malley. So, as you say, I think, you know, neither one 
of us would want to give carte blanche and say they can do 
whatever they want. If, tomorrow, the LAF were completely under 
the control of Hezbollah, I do not--I think it would be hard to 
argue for continued assistance. I think where we would differ 
is, I think where we are today, and where the State Department 
and the--and General Votel and Secretary Mattis are, is that--
where we are today, that is a right balance. I do not know that 
we want to be as explicit. I think it is the kind of thing, as 
I understand it and from my experience, that we work directly 
with the LAF, and we say there are some things, in terms of the 
degree of coordination and cooperation with Hezbollah that 
would cross the line. It is more we know when we see it rather 
than red lines, which then may lead Hezbollah to try to cross 
them.
    So, I think there are steps about how closely the LAF and 
Hezbollah coordinate, how much Hezbollah has direction, in 
terms of the decisions that the LAF is making. But, I would--I 
think, again, where we differ is that today I do not think that 
we should be at a point where we say that, if the status quo 
were to continue, then Lebanon should see implications, in 
terms of the degree of our assistance.
    Senator Young. So, Mr. Abrams, do you have different 
thoughts about the extent we should--
    Mr. Abrams. Yeah, I would say----
    Senator Young. --we should be explicit about what 
constitutes good behavior? And then, secondarily, would it be 
feasible, to borrow, actually, a construct that Senator Kaine 
put forward in a different setting, to perhaps put some money 
in escrow until the Lebanese come into good behavior?
    Mr. Abrams. I think that is----
    Senator Young. This is a different context----
    Mr. Abrams. Yeah. I think it is a very interesting idea, 
because I think there are some things--I do not mean that we 
should shout them from the rooftops. We can say them privately 
to the LAF. It will become known to Hezbollah within about 10 
minutes. We do not want to see any visible cooperation between 
those two. And you do see visible cooperation. That is just one 
example.
    I would like to take a look at the question of promotions 
within the LAF, where I believe Hezbollah has pretty much a 
veto power, which is really--really ought to be unacceptable to 
us.
    So, I think there are things that we could talk about to 
the LAF in private that we would set as more or less red lines, 
or at least as things that we are going to consider at the top 
of the list if we are going to release the escrow fund, for 
example.
    Senator Young. Let me pivot to Hezbollah and its threat to 
Israel. Mr. Abrams, how has Hezbollah's rocket and missile 
arsenal changed since the 2006 war, in terms of size of the 
arsenal and the range of the missiles?
    Mr. Abrams. It is generally believed that the arsenal is 
something like five or six times as large, from 10- to 20,000 
to 100- to 150,000 missiles. And in 2006, they were really dumb 
bombs. Now Hezbollah has at least a few thousand targetable 
rockets that can go after a powerplant, a desalination plant, 
the IDF headquarters. This is why Israel is spending so much 
effort trying to prevent Iran from getting more of those to 
Hezbollah or creating a precision weapons factory in Syria or 
Lebanon. So, the level of danger has risen considerably.
    Senator Young. I can only imagine how Americans would feel 
if we were under a similar situation, where our most populous 
cities were under a threat of--a continuous threat, as are the 
Israelis. What might we do, as a government, that we are not 
doing to assist the Israelis, our strongest ally in the region, 
dealing with this threat?
    Mr. Abrams. I think you are doing it, actually.
    Senator Young. Okay.
    Mr. Abrams. I mean, one thing is to make sure that we pre-
position munitions in Israel so that you do not have to have 
the kind of airlift we needed in 1973. Another is to join with 
the Israelis in building the various forms of rocket and 
missile defense that have been very useful to them already, and 
can be very useful to us, as well. And Congress has been really 
quite generous in financing that.
    Senator Young. Thank you.
    Senator Risch. Mr. Malley, briefly, do you agree with Mr. 
Abrams' assessment of the situation regarding the rockets in 
Lebanon?
    Mr. Malley. I think that is an uncontroversial--I mean, I 
think people generally agree with it. That is the size of 
Hezbollah. I think the real question is, what is the risk of 
war? The International Crisis Group has the ability to talk to 
all parties. I think our assessment, having spoken to 
leadership in Israel and in--and among Hezbollah, is that 
neither side wants a war right now, precisely because of this 
balance of deterrence, what Hezbollah calls ``balance of 
terror,'' that Hezbollah knows it would be decimated if it 
provoked Israel. But, Israel also knows that, if it had to face 
100,000 rockets pouring on its cities, that would be very 
difficult. I think they would do it if they felt they had to, 
but neither side right now is itching for a fight.
    Senator Young. Thank you, Mr. Malley.
    Senator Risch. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I think it would be a mistake if we left this hearing 
viewing Lebanon through the prism of ``a problem child.'' It 
has challenges, it has an alliance in connection to Hezbollah 
and Iran that causes difficulties for us. But, we would wish 
for the existence of a Lebanon-like political arrangements on 
many of its neighbors. This is a multiethnic, pluralistic, 
coalition government. It is a nation that is, by and large, 
stable, free from military/civil conflict. And it is also, by 
the way, hosting 1.5 million Syrian refugees, which equals one-
quarter of the country's population. Without Lebanon's 
agreements to host those refugees, our military operations in 
Syria would be in a very different position today.
    And so, I think this is a very useful conversation about 
how we try to prompt Lebanon to move in a different direction 
with respect to its relationship with Hezbollah. But, I think 
it is important to celebrate the successes of a country that 
should have collapsed by now, given all of the challenges that 
it confronts, and could be a model for other nations with 
respect to how it has been able to weave together people of 
different faiths and different ethnic backgrounds.
    And, with that in mind, I wanted to ask you, Mr. Malley, to 
maybe expand on your third point. You said, ``Listen, the 
future of Lebanon is really much more about this broader 
contest.'' And what the Saudis did is really extraordinary. It 
may have backfired, and they may have pulled back, thanks, in 
part, to some intervention from the United States and others, 
but it begs the question what their next gambit may be and how 
the new positioning by this administration, as a relatively 
unconditional supporter of the Saudis' regional plays, will 
affect the decision they make a year from now, or 2 years from 
now.
    Should we worry about MBS' emboldened position and his next 
attempt to try to force the hands of the Lebanese? Is this it? 
Are they just back in their corner, or are we perhaps--should 
we be thinking about getting ready for another potentially 
destabilizing effort inside Lebanon?
    Mr. Malley. Well, first of all, thank you, Senator Murphy, 
for what you said at the beginning, which is exactly my view. I 
said, at the beginning of my testimony, there is so much that 
Lebanon is an exception to the rest of the region, and that we 
need to support the pluralistic, tolerant, multiconfessional. 
Also, as you say, Lebanon has too often been the arena for the 
struggles of other. Whether it is regional neighbors, whether 
it is others, it has been the victim of power politics by 
regional and international actors, and they have always paid a 
very heavy price. And I think we now can--this is one of the 
longest stretches of time where Lebanon has not been the victim 
of those conflicts, if you--since the second Israeli/Hezbollah 
war in 2006. And that is--that is, again, something to be, not 
just celebrated, but to be supported.
    I spoke earlier about Saudi Arabia's gambit. I believe it 
backfired. I also said I was in Saudi Arabia last week, where I 
met with the Crown Prince. My sense--but, this is just my 
words, not his--I think that he realizes that the gambit 
backfired, and they have a--they have now reverted to a more 
pragmatic approach of, basically, status quo ante of work, 
trying to support those institutions in Lebanon that are 
sovereign and independent.
    How long that would last, he still--I think, still 
believes, deep down, sort of as Elliott would say, that there 
is something wrong with this picture. Why are we supporting a 
country in which Hezbollah is a--not just a partner, but the 
dominant partner?
    And that brings me to the issue of U.S. policy. I have 
nothing against supporting Saudi Arabia. I do think there is a 
problem when we enable them, and enable their worst instincts. 
And I think that has been a trend in Yemen, it has been a trend 
in their--at the beginning of this Lebanese adventure. It has 
been a trend in their conflict--their dispute with Qatar. I 
think support has to come with good advice, and support has to 
come with trying to channel Saudi--the renewed vision for the 
region, channel it in the right direction. And I hope--and, in 
this case, as you know well, after a first supportive--
expression of support by the administration for what was--what 
had gone on between Saudi Arabia and Lebanon, there was an--
strong pushback by Assistant Secretary Satterfield--Acting 
Assistant Secretary Satterfield. I think that needs to 
continue. We need to tell the Crown Prince, ``Here are some 
things that you ought not to do.''
    Senator Murphy. Let me try to sneak in a question to you, 
Mr. Abrams. You can take a stick approach with the LAF and with 
the Lebanese government, and you can take a carrot approach. I 
wanted to ask you about--because we have got a proposed budget 
that, you know, will not see the light of day here from the 
Trump administration, that proposes, you know, wiping out 56 
percent of the bilateral aid that we give to Lebanon. But, what 
about a concerted effort to try to reach out to the Shia 
populations in Lebanon to convince them that Iran is not only--
is not their only friend, is not their only protectorate, that 
they have other places to turn? The Iranians have done this 
effectively throughout the region. In Bahrain, they reached out 
and convinced the Shia populations that the only way that they 
could gain protection as a minority population was to turn to 
Iran. What about using additional assistance, rather than just 
the threat of cutting off assistance, especially with respect 
to the Shia population, to try to give them a choice?
    Mr. Abrams. Well, I would like to see us make an effort to 
get more Shia away from Hezbollah. And I think it is very hard 
to measure what percentage of the Shia population actually does 
not support Hezbollah. It is not zero. But I do not know if we 
are really equipped to do it. I do not know if we really know 
how to do that. I would like to see us do it in Bahrain, as 
well, which is another hearing. But I do think that we should 
be thinking about ways to get the Shia population to see the 
problem more clearly, and to begin to turn away from Hezbollah. 
The problem you run into there is Hezbollah's power, which does 
not primarily come from speeches, it comes from--primarily from 
the fact that they have the guns.
    Senator Murphy. Thank you, Mr. Chairman.
    Senator Risch. Senator Booker.
    Senator Booker. Thank you so much.
    Mr. Malley, just real quick, the instability in southern 
Lebanon, the incredible influx of refugees, the poverty amongst 
the populations there, to me it creates an environment where 
radicalism much more easily takes root. And I am wondering, in 
that context, with all the levers that the United States has, 
how important is, you know, USAID's education efforts going on 
there, trying to service children? Could you just sort of let--
help me understand, in terms of--as we think about all these 
levers that we have, the importance of doing direct support to 
poor populations, particularly children, education, things like 
that?
    Mr. Malley. Thank you, Senator Booker.
    I think this piggybacks on the question that Senator Murphy 
asked, and I think it is absolutely right. We--where do we have 
value added? We have value added in many things that are soft 
power--our economy, our support for refugees, our support for 
programs on the ground, which right now in southern Lebanon--I 
mean, where does Hezbollah's strength originally come from? 
From the fact that they were the vehicle for the empowerment of 
the community, the Shiites, who felt disempowered and 
marginalized. Others need to step in. Again, that is what 
Senator Murphy said.
    And the broader point here, which relates to Hezbollah and 
Iran's influence, if there is one lesson I think we could take 
from the last 15 or more years, is that instability, chaos, 
that is what benefits Iran. That was true in Lebanon, it was 
true in--it is true in Yemen today, it is true in Syria, it was 
definitely true in Iraq. Whereas our value, our strength comes 
from when we could support institutions, when our economic 
strength comes into play, where our social programs come into 
play. We should not be promoting instability. And again, I am 
not saying that is what my friend Elliott is advocating, but 
some of these policies could lead--and what the Crown Prince of 
Saudi Arabia had tried at one point--could lead to instability, 
and that instability not only helps radicalism, it also 
supports the efforts of a country like Iran that knows how to 
prosper on chaos.
    Senator Booker. Do you want to comment on that?
    Mr. Abrams. Just one brief comment. And that is, I agree 
with that, but I do think that, on the economic side, we have 
to take a careful look at the Lebanese banking system, which 
has often been used by Hezbollah. And, I mean, hundreds of 
millions of dollars come into Hezbollah, some from Iran, but 
many from illegal activities, including narcotics trafficking, 
primarily in Latin America. And a lot of that goes through the 
Lebanese banking system. So, while I agree that it is fragile, 
if it is a criminal enterprise, it needs to be investigated and 
sanctioned by the United States. That is what our laws are 
there for. So, I would not give them a pass on that.
    Senator Booker. So, can I drill down on that a little bit 
more? Because, obviously, I think that Shaheen-Rubio did a 
pretty good job with helping us get more at the Lebanese banks 
to--trying to stop Hezbollah, these payments. But, what I am 
hearing and my staff is hearing is that the way that Hezbollah 
is moving these days is more in bulk cash payments, not through 
banking systems. They are using them for weapons transfers. And 
so, are the banks really the center of what we should be 
focusing our--that tool in our toolbox, the--our efforts at 
sanctioning--are we, in some ways, not getting into the root of 
the problem with the way that Hezbollah is moving its 
resources?
    Mr. Abrams. I would not say there is a root. I would not 
say that the banks are the only way they are doing it. But--and 
I am not seeing the intel, these days. You are. But, I do not 
think that the Lebanese banking system gets a pass on this. 
Hezbollah is there and continues to use that banking system.
    Senator Booker. Mr. Malley, you want to comment on that at 
all?
    Mr. Malley. So, I mean, I--again, I think we have, 
historically, sanctioned Lebanese banks. Obviously, Hezbollah 
will find ways to circumvent that. They will always look for 
ways. I think we just have to be careful--and when we go after 
the banks, to make sure that--and my understanding is that the 
Treasury Department is--feels like there has been progress 
made. That is--again, I do not get the intelligence briefings, 
either. We just have to be careful that we are not drowning the 
country, even as we are trying to hit Hezbollah. Because this 
is a fragile country, and their banking sector is pivotal for 
their economy. I think there are steps we can take. Maybe there 
is more that we could take. But, let us not go there with a 
sledge hammer and wreck up the country in the process.
    Senator Booker. And then, just finally, I have a worry 
about just the--with the Iranian drone coming over and doing an 
incursion into Israel, with heightened tensions, with the 
instability that I see in the aftermath of the major conflicts 
in Syria, Iran's influence in Syria--I just have this--a 
growing concern that one of the things we should be looking at, 
put the JCPOA aside, is just a conflict between Israel--a 
direct conflict between Israel and Iran. Can you let me--help 
me understand how realistic my concerns are and what we should 
be thinking about, in terms of not allowing such a conflict to 
take place?
    Mr. Abrams. Well, I think you would get a proxy conflict, 
in a sense, between Hezbollah, backed by Iran, and Israel. And 
I think that is the--what we are all worried about. When I 
travel to Israel, I hear less and less about the Iran nuclear 
question or about Palestinian questions, and more and more 
about the northern front--Syria and Hezbollah. I think we do 
need to take a look at the question of Americans in Lebanon. 
There are something like 15- to 25,000. What happens to them if 
such a war breaks out? How do we protect them? How do we 
evacuate them? But, I am less worried about a direct conflict 
than I am about--
    Senator Booker. Proxy fight.
    Mr. Abrams. Yup.
    Mr. Malley. If you do not mind, I think it is a fair--it is 
certainly a fair concern. The more likely fight is between 
Hezbollah and Israel, but the region today, I would say, is 
both more integrated and more polarized than it has ever been. 
In other words, it is very polarized. We obviously know that 
the dispute between Saudi Arabia and Iran, between Israel and 
Iran, between us and Iran. But, it is also very integrated. In 
other words, what happens in Lebanon will quickly spread to 
Syria, and vice versa. What happens in Yemen could spread to 
Iran, could spread to Syria, could spread to Lebanon, could 
spread to Israel. This is a place where you could light the 
match one place and the whole region could be ablaze. And it 
could well be that Iran and Israel will find themselves, as 
they almost did with the episode of the drone, directly at 
loggerheads.
    I think the answer to this--and it goes, again, to the 
question that Senator Kaine was asking--How do we get to this 
broader problem of the Middle East? We are going to have to do 
what we are doing to try to push back, but we have to get 
engaged in diplomacy. There is going to have to be a new 
regional architecture for this region. It is not simply going 
to appear. Our pushback is not going to stop Iranian influence, 
it is not going to destroy the 100,000 missiles. We are going 
to have to think of how we get to real diplomacy, which means 
carrots and sticks, which means pressure, but also engagement. 
And we have dropped that second part.
    Senator Risch. Thank you very much.
    Gentlemen, we have got a vote going to go up. Senator Kaine 
and I each will close this out with a question. Hopefully, you 
can have a brief answer, because we do have a vote starting.
    So, Senator Kaine, you want to go first?
    Senator Kaine. Yeah, just really quickly.
    I wanted to ask about the refugee issue. I mean, I--what 
Lebanon has done, given the size of its population, with this 
massive Syrian refugee population, is pretty amazing. As the 
Chair mentioned, there is already a longstanding Palestinian 
refugee community.
    So, Mr. Malley, I sort of asked you this question, and I am 
going to ask you, in your ICG role, sort of, if we play down 
the road the politics in Lebanon, that is one thing, but let us 
play down the road this, you know, million-plus refugees. I am 
not sure they are going back to Syria anytime soon. They impose 
significant challenges, even as Lebanon has been pretty 
welcoming of them. What do we need to do, as an international 
community? And how do you see the long-term presence of this 
sizable number of Syrian refugees as, you know, shaping the 
future in Lebanon?
    Mr. Malley. As you say, there is between 1- and 1.5 
million. It is a quarter of the population.
    Senator Kaine. Yeah.
    Mr. Malley. Almost staggering, the numbers. So, very 
quickly, we need to provide support for the refugees. We also 
need to be very aware of the fact that it is creating sectarian 
tensions within Lebanon. And that--and so, we have to be very 
supportive and have social programs, employment programs to 
make sure the refugees do not become a drain.
    And, my last point, yes, returning Syria, it may be a long-
term aspiration. We have to make sure that it is done 
voluntarily. There is often a tendency in Lebanon to think that 
they should kick them out because of the imbalance they are 
creating on the sectarian spectrum. I think we have to be clear 
to the Lebanese that is an--unacceptable.
    Senator Kaine. Thank you.
    Senator Risch. Let me close with this. U.N. Security 
Council Resolution 1701 and 2373 were pretty clear--not pretty 
clear, very clear--that the U.N. force in Lebanon was to assist 
the Lebanese government in creating an area free of any armed 
personnel, assets, and weapons, other than those of the 
Government of Lebanon and/or those of UNIFIL, obviously to the 
elimination of Hezbollah weapons. How do you assess--I hear a 
lot of criticism from the Israelis about that. How do each of 
you--as briefly as you can, tell me how successful that has 
been and whether you agree that it is not working very well.
    Mr. Abrams. Well, I think it clearly has not worked. The 
goal has been to have Lebanese government sovereignty over the 
full territory, no militias, no terrorist groups. And, since 
the passage of those resolutions, I would say Hezbollah is more 
powerful. Also, at the end of the 2006 war, we, the United 
States, tried very hard to enlarge and improve and empower 
UNIFIL, for the same reasons, really. And I would say that has 
failed, too.
    So, if we have been trying since 2006 to create a situation 
in which the state has more control of the territory of 
Lebanon, and Hezbollah's power is diminished, we have failed.
    Senator Risch. Mr. Malley.
    Mr. Malley. It is clear. 1701 are words on paper; they are 
not going to be translated on the ground, and they are not 
going to be translated anytime soon, for clear reason. Israel 
was not--was not able, in 2006, to completely destroy 
Hezbollah. It is certainly not the Lebanese Army, it is not 
UNIFIL that is going to be able to do it. So, we are going to 
have to live with the situation, where we have a resolution 
that is aspirational. But, Lebanon is simply, as I said--I will 
conclude with what I started with--it is too weak, it is too 
vulnerable for us to impose on that country, on that army, to 
try to do what greater powers have been unable to do.
    Senator Risch. Thanks, to both of you. And I think I speak 
for the committee and for the Ranking Member, we want to thank 
you for appearing here today, particularly under the 
circumstances we have with the weather.
    But, the record will remain open until close of business on 
Friday for any additional questions that Senators may have.
    Again, thank you for coming here. I think this has been 
very productive.
    This committee will be adjourned.
    [Whereupon, at 3:00 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  ``Lebanon is Boiling. Thousands of Americans Could Get Stuck in the 
        Middle of a War.'' by Elliott Abrams and Zachary Shapiro
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>
</pre></body></html>
